    March 31, 2006




Financial Management

Implementation of the Business
Enterprise Information Services for
the Army General Fund
(D2006-068)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
BEIS                  Business Enterprise Information Services
DCD                   Defense Finance and Accounting Service Corporate Database
DCW                   Defense Finance and Accounting Service Corporate Warehouse
DDRS                  Defense Departmental Reporting System
DFAS                  Defense Finance and Accounting Service
DoD IG                Department of Defense Inspector General
FMR                   Financial Management Regulation
GAO                   Government Accountability Office
HQARS                 Headquarters Accounting and Reporting System
SFIS                  Standard Financial Information Structure
USSGL                 U.S. Standard General Ledger
                             INSPECTOR GENERAL
                           DEPARTMENTOFDEFENSE
                            400 ARMY NAVY DRIVE
                       ARLINGTON. VIRGINIA 22202-4704




                                                                          March 3 1,2006
MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
SUBJECT: Report on Implementation of the. Business Enterprise Information Services
         for the Army General Fund (Report No. D-2006-068)

       We are providing this report for your information and use. We considered
management comments on a draft of this report in preparing the final report. The
comments on the draft of this report conformed to the requirements of DoD Directive
7650.3 and left no unresolved issues. Therefore, no additional comments are required.
         We appreciate the courtesies extended to the staff. Questions should be directed
to Jack L. Armstrong at (3 17) 5 10-4801 (DSN 699-480 1) or Mark A. Ives at (3 17) 5 10-
4801 (DSN 699-4801). See Appendix D for the report distribution. The team members
are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:



                                         Paul Y~ranetto,CPA
                                       Assistant Inspector General
                                       Defense Financial Auditing
                                                 Service
                   Department of Defense Office of Inspector General
Report No. D-2006-068                                                     March 31, 2006
     (Project No. D2005-D000FI-0052.001)

              Implementation of the Business Enterprise Information
                      Services for the Army General Fund

                                      Executive Summary

Who Should Read This Report and Why? This report should be read by all Defense
Finance and Accounting Service (DFAS) personnel with Army General Fund financial
reporting responsibilities and by personnel assigned to the Business Enterprise
Information Services, Project Management Office. The report discusses the
establishment of beginning account balances in the DoD Business Enterprise Information
Services.

Background. This report addresses the implementation of the DoD Business Enterprise
Information Services. This is the second in a series of reports related to the audit of the
process used to compile Army General Fund financial reports and statements. The
Business Enterprise Information Services initiative is designed to standardize the
departmental reporting process and to produce the monthly reports based on the
U.S. Standard General Ledger. The Business Enterprise Information Services will
process and standardize financial information received from legacy accounting systems.
DFAS Accounting Services Army1 planned to use the Business Enterprise Information
Services to process information for compiling the FY 2005 Army General Fund financial
reports and statements. The Business Enterprise Information Services will replace the
Headquarters Accounting and Reporting System and associated processes. The
Headquarters Accounting and Reporting System is the legacy system currently used to
compile Army General Fund information for financial reports and statements. For
FY 2005, the Army General Fund reported Total Assets of $252.2 billion, Total
Liabilities of $62.3 billion, Net Cost of Operations of $146.4 billion, and Total Budgetary
Resources of $215.1 billion.

Results. DFAS Accounting Services Army did not take sufficient actions to ensure that
the Business Enterprise Information Services could be used to prepare the year-end
FY 2005 Army General Fund financial statements and reports. DFAS Accounting
Services Army did not reconcile the $1 trillion (absolute value) in differences between
the FY 2004 ending account balances in the Defense Departmental Reporting System-
Audited Financial Statements and the FY 2005 beginning account balances in the
Business Enterprise Information Services. As a result, DFAS and the Army did not
realize the potential $2.7 million annual cost savings associated with implementing the
Business Enterprise Information Services and eliminating the Headquarters Accounting
and Reporting System. In addition, DFAS Accounting Services Army did not correct
two material internal control weaknesses (abnormal account balances and unsupported
ending balance adjustments) in Army General Fund financial reporting.


1
    Now called the DFAS Indianapolis Operations.
The Director of DFAS should establish standard operating procedures that will provide
guidance on recording and reconciling beginning account balances in the Business
Enterprise Information Services. The Director should also report problems with
recording beginning account balances and abnormal account balances as material internal
control weaknesses in the Annual Statement of Assurance and change the completion
dates for correcting unsupported ending balance adjustments. In addition, the Director
should adjust the beginning account balances in the Business Enterprise Information
Services to agree with the prior-year ending account balances. (See the Finding section
for detailed recommendations.)

Management Comments. The DFAS Director, Indianapolis Operations, concurred with
the recommendations stating that they will ensure that the FY 2006 Business Enterprise
Information Services beginning account balances agree with budgetary balances. DFAS
will reconcile the Business Enterprise Information Services beginning balances with the
prior-year ending balances using the U.S. Standard General Ledger and will retain all
supporting documentation and certifications of review and approval. The FY 2006
Annual Statement of Assurance will accurately reflect the status of the implementation of
the Business Enterprise Information Services and the status of the proprietary-to-
budgetary adjustment.2 DFAS will adjust the Business Enterprise Information Services
beginning account balances to agree with the prior-year ending account balances. (See
the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.)




2
     This is an adjustment to force the general ledger accounts to agree with the status of appropriation
    information.




                                                        ii
Table of Contents

Executive Summary                                                 i

Background                                                       1

Objective                                                        3

Managers’ Internal Control Program                               3


Finding
     Controls Over Establishing the Beginning Account Balances    4

Appendixes
     A. Scope and Methodology                                    13
         Prior Coverage                                          14
     B. Comparison of Trial Balances                             15
     C. Calculation of Unadjusted FY 2004 Year-End Balances      20
     D. Report Distribution                                      21

Management Comments
     Defense Finance and Accounting Service                      23
Background
           This report addresses the implementation of the DoD Business Enterprise
           Information Services (BEIS). This is the second in a series of reports related to
           the audit of the process used to compile the Army General Fund financial reports
           and statements. The first report addressed an internal control weakness for
           accessing information in BEIS. The Defense Finance and Accounting Service
           (DFAS) Accounting Services Army1 had planned to use BEIS for compiling the
           FY 2005 Army General Fund financial reports and statements. However, the
           planned implementation slipped to FY 2006.

           DoD Business Enterprise Information Services. The BEIS initiative includes
           the DFAS Corporate Database (DCD), the DFAS Corporate Warehouse (DCW),
           and the Defense Departmental Reporting System (DDRS). BEIS builds upon
           existing infrastructure to provide timely, accurate, and reliable business
           information from across DoD and to support auditable financial statements. BEIS
           provides the following benefits.

                    •   All accounting entries are auditable to source systems and data (audit
                        trails are incorporated into the system).

                    •   All transactions use the Standard Financial Information Structure
                        (SFIS) for consistency and are compliant with the U.S. Standard
                        General Ledger (USSGL).2

                    •   A single trial balance for each organization will be automatically
                        produced from transaction-level data.

                    •   All budget and execution reports and financial statements will be
                        produced from the same trial balance, eliminating the possibility of
                        discrepancies.

           Business Enterprise Information Services Information Flow. BEIS will
           expand on existing DCD functionality to interface, standardize, and share data
           between other financial information systems. This central repository of
           transaction-level data will then flow to DCW, which will provide a single point
           for enterprise-wide financial management reporting and information analysis.
           Field accounting activities submit Army General Fund accounting transactions to
           DCD through data files generated from legacy accounting systems. Transactions
           from these legacy accounting systems are in a “nonstandard” format. One of the
           functions of DCD is to create Standard Financial Information Structure (SFIS)
           accounting transactions from the nonstandard data submitted by the field
           accounting activities.3 The DCD then posts these SFIS transactions to the USSGL

1
    Now called the DFAS Indianapolis Operations.
2
    The USSGL identifies the accounting codes used in the accounting systems of the Federal agencies. It
    includes account number, account title, and the normal balance (debit or credit) of the accounts.
3
    Transactions from legacy systems that use accounting and transaction codes other than those transaction
    codes specified by SFIS are nonstandard data.


                                                       1
           accounts. Approximately 80 percent of the financial information processed in
           BEIS originated from feeder systems,4 and the remainder originated from DFAS
           systems. The following figure shows the flow of data through BEIS.

                                               BEIS Data Flow




           DDRS will be incorporated into a single solution that will summarize transaction-
           level information from DCW to produce DoD financial statements and mandatory
           budgetary reports. DCD will eliminate multiple databases and the reconciliation
           inefficiencies that can result when data are passed back and forth between
           information systems.

           Current Army General Fund Financial Reporting. BEIS will replace the
           Headquarters Accounting and Reconciliation System (HQARS). DFAS
           Accounting Services Army has compiled Army General Fund financial reports
           and statements from financial information processed by HQARS since 1991.
           HQARS is a legacy accounting system that does not meet Federal system
           requirements. At the end of each accounting period, DFAS Accounting Services
           Army transfers trial balance data into the general ledger. DFAS Accounting
           Services Army adjusts the general ledger accounts by making large unsupported
           adjustments to force the general ledger accounts to agree with the status of
           appropriation information. It then transfers the general ledger account
           information to the DDRS-Audited Financial Statements module. DFAS
           Accounting Services Army uses the DDRS-Audited Financial Statements module
           to prepare the actual financial statements. For FY 2005, the Army General Fund
           reported Total Assets of $252.2 billion, Total Liabilities of $62.3 billion, Net Cost
           of Operations of $146.4 billion, and Total Budgetary Resources of $215.1 billion.




4
    Feeder systems are information systems, such as the Standard Finance System and the Standard Operation
    Maintenance Army Research and Development System, which transfer accounting data into DCD from
    field accounting activities.



                                                     2
          Financial Management Regulation. DoD Financial Management Regulation
          (FMR) 7000.14-R, volume 1, chapter 3, prescribes the procedures for determining
          whether DoD accounting systems are designed, documented, and operated in
          accordance with applicable regulations. Volume 1, chapter 3, states that audit
          trails are a key accounting requirement as financial transactions must be
          adequately supported and traceable to individual source records. Audit trails
          facilitate the tracing of a transaction from its source to the resulting record or
          report, and from the resulting record or report back to the source. Volume 1,
          chapter 3, also requires that subsidiary records5 be reconciled with the account
          balances to validate amounts recorded in the general ledger.


Objective
          The overall audit objective was to determine whether the internal controls over
          the financial information processed by BEIS were adequate for Army General
          Fund financial reporting. This report discusses the planned use of BEIS to
          compile Army General Fund financial reports and statements. See Appendix A
          for a discussion of the scope and methodology and for prior coverage related to
          the objective.


Managers’ Internal Control Program
          We identified a material internal control weakness for DFAS Accounting Services
          Army as defined by DoD Instruction 5010.40, “Management Control (MC)
          Program Procedures,” August 28, 1996. DFAS Accounting Services Army
          internal controls were not adequate to ensure that FY 2005 beginning account
          balances for the Army General Fund were accurately recorded in BEIS.
          Recommendations 1 and 3, when implemented, will correct the identified
          weaknesses and allow DFAS Accounting Services Army to use BEIS for Army
          General Fund accounting and reporting. In addition, DFAS Accounting Services
          Army did not identify its inability to record accurate beginning account balances
          in BEIS as an internal control weakness in its FY 2005 Annual Statement of
          Assurance (Annual Statement), dated June 24, 2005. The Finding section of this
          report discusses the details of the internal control weaknesses and the adequacy of
          management’s self-evaluation process. A copy of the report will be provided to
          the senior official responsible for the Internal Control Program at DFAS.




5
    A subsidiary record supports an amount recorded in the general ledger.



                                                      3
                    Controls Over Establishing the Beginning
                    Account Balances
                    DFAS Accounting Services Army did not take sufficient actions to ensure
                    that BEIS could be used to prepare the year-end FY 2005 Army General
                    Fund financial statements and reports. This occurred because DFAS
                    Accounting Services Army did not have adequate internal controls to
                    ensure that the FY 2005 beginning account balances were properly
                    recorded in BEIS. Specifically, DFAS Accounting Services Army did not
                    perform an adequate reconciliation of the $1 trillion (absolute value) in
                    differences between the FY 2004 ending account balances in DDRS-
                    Audited Financial Statements and the FY 2005 beginning account
                    balances in BEIS. DFAS Accounting Services Army used unreliable
                    financial information from HQARS to establish beginning account
                    balances, and did not transfer the FY 2004 general ledger balances and
                    year-end accounting adjustments to BEIS. In addition, DFAS Accounting
                    Services Army did not have adequate procedures for recording and
                    reconciling the beginning account balances in BEIS. As a result, DFAS
                    and the Army did not realize the potential $2.7 million annual cost savings
                    associated with implementing BEIS and eliminating HQARS. DFAS
                    Accounting Services Army was also not able to correct two material
                    internal control weaknesses (abnormal account balances and unsupported
                    ending balance adjustments) in Army General Fund financial reporting.


Recording Beginning Account Balances
           As of August 17, 2005, the difference between the FY 2004 ending account
           balances in the trial balance in DDRS-Audited Financial Statements and the
           FY 2005 beginning account balances recorded in BEIS was over $1 trillion
           (absolute value). See Appendix B for a detailed comparison of the two trial
           balances. The following are examples of account balance differences and
           indications of potential budget and financial statement impacts if the beginning
           account balances are not corrected6 before BEIS is implemented.
                    •    Fund Balance with Treasury (general ledger account 1010). This
                         account represents the aggregate amount of funds on deposit with
                         Treasury, excluding seized cash deposited. DFAS Accounting
                         Services Army overstated the beginning balance in BEIS by
                         $2.7 billion. In effect, DFAS Accounting Services Army overstated
                         the balance in the Army’s checking account.

                    •    Accounts Payable (general ledger account 2110). This account
                         represents amounts owed to other Federal or non-Federal entities for
                         goods and other property ordered and received, and for services
                         rendered by other than employees. DFAS Accounting Services Army
6
    In this context, correct means that the beginning account balance agrees with the prior-year ending
    account balance.



                                                       4
                         understated the beginning balance in BEIS by $1.2 billion. This
                         understates the amount of current debt owed to Army creditors.

                    •    Unexpended Appropriations - Cumulative (general ledger account
                         3100). This account represents amounts appropriated by Congress less
                         disbursements. DFAS Accounting Services Army understated the
                         beginning balance in BEIS by $11.5 billion. The Army had more
                         appropriated funds available to cover planned disbursements than was
                         shown in the BEIS beginning account balance.

                    •    Total Actual Resources - Collected (general ledger account 4201).
                         This account is used at year-end closing to consolidate the total
                         amount of actual resources collected from all sources. DFAS
                         Accounting Services Army overstated the beginning balance of
                         resources collected from all sources by $6.4 billion.

                    •    Commitments - Programs Subject to Apportionment (general
                         ledger account 4700). This account represents the amount of
                         allotment or lower-level authority committed in anticipation of
                         obligation for programs subject to apportionment. An apportionment
                         is a plan, approved by the Office of Management and Budget, to spend
                         resources provided by law. DFAS Accounting Services Army
                         overstated the beginning balance of this account in BEIS by
                         $19.5 billion.

           In order to implement BEIS and prepare the Army General Fund financial reports,
           DFAS Accounting Services Army needed to establish beginning account
           balances. Beginning account balances are the account balances at the start of an
           accounting period and are derived from the ending account balances of the
           previous period.7 However, DFAS Accounting Services Army did not have
           adequate internal controls to ensure that the FY 2005 beginning account balances
           for the Army General Fund were properly recorded in BEIS.


Reconciliation of Account Balances
           DFAS Accounting Services Army personnel were not able to reconcile the
           FY 2004 ending account balances in DDRS-Audited Financial Statements with
           the FY 2005 beginning account balances in BEIS. In June 2005, we compared
           the FY 2005 beginning account balances from BEIS with the FY 2004 post-
           closing ending account balances from DDRS-Audited Financial Statements and
           identified a difference of $4.7 trillion (absolute value). As of August 17, 2005,
           the difference had been reduced to $1 trillion (absolute value). DFAS Accounting
           Services Army was unable to reconcile the balances in time to compile the

7
    At the end of an accounting period, typically a fiscal year, the closing process occurs. This is when the
    nominal account balances are transferred to permanent accounts. For example, revenue and expense
    accounts are closed to the equity accounts and the nominal budgetary accounts are closed to permanent
    budgetary accounts. The nominal accounts begin each fiscal year with a balance of zero while the
    permanent accounts can begin a fiscal year with a balance.



                                                        5
FY 2005 year-end Army General Fund financial reports and statements. DFAS
Accounting Services Army reconciliation efforts focused on comparing Army
budget reports to nonstandard transactions rather than performing the
reconciliations at the appropriation level using general ledger accounting.

The amounts in the BEIS beginning account balances were incomplete.
Information transferred from HQARS was incorrect. In addition, BEIS did not
include all the financial information that was recorded in DDRS-Audited
Financial Statements. Specifically, BEIS did not contain the:

       •   FY 2004 general ledger ending account balances, and

       •   FY 2004 accounting adjustments made at year end.

DFAS Accounting Services Army did not establish standard operating procedures
before it attempted to establish the beginning balances in BEIS. Standard
operating procedures would have provided guidance on the proper way to
establish beginning balances and to document the process used to record and
reconcile beginning account balances.

Inaccurate Headquarters Accounting and Reporting System Information.
The financial information transferred from HQARS and used to establish the
BEIS beginning balances was not correct. To establish a beginning account
balance in BEIS, DFAS Accounting Services Army created data files from
information in HQARS and transferred these data files to BEIS. The information
transferred into BEIS should have equaled the FY 2004 ending account balances
in DDRS-Audited Financial Statements less year-end accounting adjustments.
Table 1 contains examples of the differences between the unadjusted DDRS-
Audited Financial Statements account balances and the BEIS beginning account
balances. Appendix C shows how the unadjusted DDRS-Audited Financial
Statements account balances were calculated.




                                   6
             Table 1. Differences Between Account Balance Amounts
                                   (in millions)

                                       Unadjusted
                                     DDRS-Audited           BEIS
                                   Financial Statements   Beginning
     General Ledger Account         Account Balances      Balances     Difference

 1010-Fund Balance with
 Treasury                               $ 88,159          $ 92,291     $     4,132

 1310-Accounts Receivable                     2,221          1,893           (327)*

 2110-Accounts Payable                       (7,744)       (11,223)         (3,479)

 4510-Apportionments                        (14,865)       (16,302)         (1,437)

 4700-Commitments-
 Programs Subject to
 Apportionments                              (1,362)       (20,859)        (19,496)*

 4801-Undelivered Orders-
 Unpaid                                     (56,557)       (60,457)         (3,900)
 *
     Difference due to rounding.



Ending Account Balances Transfer. Financial activity that occurred during
FY 2004 was in the year-end trial balance, but was not transferred into BEIS. For
example, the BEIS beginning balances did not include:
         •   $37.6 billion from the 1500 series of general ledger accounts for
             Inventory and Operating Materials and Supplies;

         •   $112.8 billion from the 1700 series of general ledger accounts for
             Property, Plant, and Equipment and related accumulated depreciation;
             and

         •   $43.1 billion from the 2900 series of general ledger accounts for Other
             Liabilities.

Year-End Accounting Adjustments. DFAS Accounting Services Army did not
transfer the FY 2004 year-end accounting adjustments made in DDRS-Audited
Financial Statements to BEIS. At the end of FY 2004, DFAS Accounting
Services Army prepared accounting adjustments to correct accounting errors, add
additional accounting information, and force general ledger balances to agree
with other sources of information. DFAS Accounting Services Army made over


                                        7
$313 billion in adjusting entries at the end of FY 2004 that were not transferred to
the beginning account balances in BEIS. Table 2 shows the dollar value of
adjustments made to selected general ledger accounts.



             Table 2. Accounting Adjustments Made to Selected
                         General Ledger Accounts

                                                              Amount of
                                                        Accounting Adjustments
 General Ledger Account                                      (in millions)

 1010-Fund Balance with Treasury                                $ 1,389

 1759-Accumulated Depreciation on Equipment                        6,146

 2310-Advances from Others                                         1,523

 3100-Unexpended Appropriations-Cumulative                       57,101

 4802-Undelivered Orders-Obligations,
 Prepaid/Advanced                                                  3,507



Standard Operating Procedures. DFAS Accounting Services Army did not
establish standard operating procedures or have documentation that described
what processes were used to record and reconcile the beginning account balances.
Operating procedures should have described how the beginning account balances
were to be recorded and reconciled, and who was to perform supervisory reviews
and approvals of the beginning account balances.

        Recording the Beginning Balances. DFAS Accounting Services Army
did not have a standard operating procedure for recording beginning account
balances that would have described how to transfer year-end general ledger
balances and accounting adjustments. DFAS Accounting Services Army should
have manually transferred the amounts of the year-end accounting adjustments
made to the general ledger to set up the beginning account balances in BEIS for
the new fiscal year. Unless these year-end accounting entries are brought
forward, the accounts supporting Army General Fund financial reports and
statements will be misstated. BEIS has a manual adjustment capability.
However, the accounting adjustments made in DDRS-Audited Financial
Statements do not always identify the appropriations. The appropriation that
relates to the transactions must be known in order to prepare budget reports.
DFAS Accounting Services Army should develop a procedure for bringing
forward accounting adjustments made in DDRS-Audited Financial Statements, by
appropriation, to BEIS.

       Reconciliations. DFAS Accounting Services Army did not have standard
operating procedures for reconciling the FY 2005 beginning account balances in


                                     8
    BEIS with the FY 2004 ending account balances in DDRS-Audited Financial
    Statements. A proper reconciliation would have identified the differences
    between the beginning and ending account balances and required that reasons be
    identified for the differences. DFAS Accounting Services Army personnel stated
    that they attempted to reconcile the FY 2005 beginning account balances with the
    FY 2004 ending account balances; however, they could not provide us with
    adequate documentation that identified the reasons for the differences. The
    standard operating procedure should address the reconciliation processes and
    require that:

           •   current year beginning account balances be reconciled with the prior
               year ending balances by general ledger account,

           •   all differences between the beginning and ending balances be
               researched and corrected, and

           •   documentation supporting all reconciliations be retained.

            Supervisory Review and Approval. DoD FMR 7000.14-R, volume 1,
    chapter 3 states that financial transactions must be adequately supported and
    traceable to individual source records. For example, the Director, Accounting
    Services Army is required to review and approve all accounting adjustments over
    $1 billion for supporting documentation and propriety. DFAS should require the
    Director or Deputy Director of Accounting Services Army to review and approve
    the reconciliations and account balances transferred if the amount of the transfer
    is over $1 billion.


Benefits of Implementing BEIS
    BEIS implementation for Army General Fund accounting and reporting did not
    meet the January 2005 implementation date, therefore delaying the benefits used
    to justify the project. On October 20, 2003, the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer signed a system change request that
    approved the establishment of interfaces between field-level accounting systems
    and BEIS. The use of BEIS for Army General Fund accounting and reporting
    was to begin in January 2005. The system change request indicated that the
    implementation of BEIS for Army General Fund accounting and reporting would
    cost $1.13 million and result in annual savings of $2.7 million. The annual
    savings were based on the elimination of 11 full-time equivalents (positions) and
    the elimination of HQARS. In addition to replacing HQARS, BEIS was to
    correct two material internal control weaknesses in Army General Fund financial
    reporting. These two weaknesses related to abnormal balances in the general
    ledger accounts and unsupported accounting adjustments, known as ending
    balance adjustments.

    Abnormal Balances. Department of Defense Inspector General (DoD IG)
    Report No. D-2004-118, “Army General Fund Controls Over Abnormal Balances
    for Field Accounting Activities,” September 28, 2004, states that the first quarter
    FY 2004 trial balance data for the Army General Fund included 236 general


                                         9
    ledger accounts with $884.4 billion of unresolved abnormal balances. An
    abnormal balance occurs when the reported balance does not agree with the
    normal debit or credit balance established in the general ledger chart of accounts.
    For example, Accounts Payable normally has a credit balance; therefore, a debit
    balance is an abnormal balance. An abnormal general ledger account balance is
    an accounting irregularity caused by incorrectly posting transactions or by
    operational issues such as over-obligations. In its November 23, 2004, comments
    to the report, DFAS stated that queries would be developed and procedures
    modified to identify abnormal conditions once DDRS-Budgetary (part of BEIS)
    was implemented. The estimated completion date was September 30, 2005.
    Because BEIS did not meet the milestone, the abnormal balance weakness has not
    been corrected. The FY 2005 trial balance for the Army General Fund contained
    $1.2 trillion of abnormal balances.

    Unsupported Accounting Adjustments. Since FY 1991, DFAS Accounting
    Services Army has made unsupported accounting adjustments, known as ending
    balance adjustments, to force the general ledger balances to agree with the status
    of appropriations balances at fiscal year-end. The ending balance adjustments
    totaled $72.2 billion for FY 2005. DFAS Accounting Services Army has
    consistently identified these unsupported adjustments as a material internal
    control weakness since 1991. The FY 2005 Annual Statement, June 24, 2005,
    prepared by the Director of Accounting Services Army, stated that the problem of
    ending balance adjustments identified during prior periods remains an
    uncorrected material weakness. The correction of this material weakness is
    dependent upon implementing BEIS. The targeted correction date in the FY 2004
    Annual Statement was second quarter of FY 2005; however, this has slipped
    because BEIS has not been implemented.


Adequacy of Management’s Self-Evaluation
    The DFAS Accounting Services Army FY 2005 self-evaluation of internal
    controls was incomplete. The FY 2005 Annual Statement included incorrect
    information related to the status of events required to correct the ending balance
    adjustments material weakness. It also did not report material weaknesses related
    to beginning account balances and abnormal balances.

    Ending Balance Adjustments. The DFAS Accounting Services Army FY 2005
    Annual Statement stated that the material weakness related to ending balance
    adjustments remained uncorrected. The FY 2005 Annual Statement indicated that
    the implementation of BEIS for financial reporting would eliminate the need for
    ending balance adjustments and correct the material weakness by October 2005.
    Validation of the beginning balances is one of the events necessary for
    implementing BEIS. This validation had not occurred as of November 2005, yet
    the DFAS Accounting Services Army FY 2005 Annual Statement incorrectly
    stated that it had occurred in June 2005. The failure to record and validate the
    FY 2005 beginning account balances in BEIS delayed the implementation of
    BEIS for Army General Fund reporting at least one year. The FY 2005 Annual
    Statement did not accurately reflect this failure to correct the ending balance
    adjustments weakness.


                                        10
    Analysis and Review of Internal Controls. The DFAS Accounting Services
    Army analysis and review of internal controls were incomplete. DFAS
    Accounting Services Army did not include beginning account balances and
    abnormal balances as major functions in the management control matrix or the
    self-evaluation. As a result, the DFAS Accounting Services Army did not report
    these two material internal control weaknesses in the FY 2005 Annual Statement.

    If these material weaknesses are not corrected at the time the FY 2006 Annual
    Statement is prepared, DFAS Accounting Services Army should report them as
    material weaknesses. DFAS Accounting Services Army should also report the
    correct milestone dates for corrective actions. In addition, corrective actions
    should be validated before the material weaknesses are cleared from the Annual
    Statement.


Conclusion
    The procedures used by DFAS Accounting Services Army to transfer Army
    accounting data from HQARS did not establish accurate beginning account
    balances in BEIS. A standard operating procedure that provides instructions for
    transferring and reconciling the data would ensure that the beginning account
    balances in BEIS accurately reflect the accounting activity previously recorded in
    both HQARS and DDRS-Audited Financial Statements. Accurate beginning
    balances in BEIS in the first year of operation will provide a baseline that can be
    used to verify the accuracy of the data processed in BEIS. In addition, an
    accurate baseline is needed to ensure that budget reports produced from the
    general ledger are consistent with prior year budget reports. DFAS Accounting
    Services Army should establish the beginning general ledger account balances in
    BEIS by using adjusting entries to transfer the prior year-end general ledger
    account balances from DDRS-Audited Financial Statements. The detail
    supporting the beginning account balances in BEIS should contain sufficient
    information to post the accounting adjustments by appropriation.


Recommendations and Management Comments
    We recommend that the Director of Defense Finance and Accounting
    Service:

    1. Establish a standard operating procedure that provides guidance how to
    record and reconcile the beginning account balances in the Business
    Enterprise Information Services. The standard operating procedure should
    require and address the need to:

          a. Record prior year-end Defense Departmental Reporting System -
    Audited Financial Statements accounting adjustments manually in the
    Business Enterprise Information Services at the beginning of the fiscal year.




                                        11
      b. Reconcile current year beginning balances with the prior-year
ending balances and research and correct any differences by U.S. Standard
General Ledger account codes.

     c. Retain documentation of all reconciliations and supporting
documentation.

      d. Prepare written certifications that the reconciliations and account
balance transfers have been reviewed and approved by the Director or
Deputy Director of Accounting Services Army.

Management Comments. The DFAS Director, Indianapolis Operations,
concurred with the recommendations and stated that DFAS will ensure that the
FY 2006 BEIS beginning account balances agree with budgetary balances, will
reconcile the BEIS beginning balances with the prior-year ending balances using
the USSGL, and will retain all supporting documentation and certifications of
review and approval. The management action will be completed May 30, 2006.

2. Report complete and accurate information in the FY 2006 Annual
Statements of Assurance. Specifically:

       a. Report the existence of abnormal balances and the failure to
reconcile beginning account balances with prior year-end balances as
material internal control weaknesses until it has been independently verified
that these two weaknesses have been corrected.

       b. Report the correct progress completion dates for the internal
control weakness on the ending balance adjustment.

Management Comments. The DFAS Director, Indianapolis Operations,
concurred with the recommendations and stated that the FY 2006 Annual
Statements of Assurance will accurately reflect the status of the implementation
of the BEIS and the status of the proprietary to budgetary adjustment. The
management action will be completed October 30, 2006.

3. Adjust the FY 2006 beginning account balances in the Business Enterprise
Information Services to agree with the prior year-end account balances at
the appropriation level using the general ledger account balances from the
Defense Departmental Reporting System-Audited Financial Statements.

Management Comments. The DFAS Director, Indianapolis Operations,
concurred with the recommendations and stated that this will be the final process
of the balancing and reconciliation process. The management action will be
completed May 30, 2006.




                                    12
Appendix A. Scope and Methodology
          We reviewed the internal controls for recording the FY 2005 beginning account
balances in BEIS. Specifically, we reviewed the process for transferring the accounting
data from HQARS to BEIS. In June 2005, DFAS Accounting Services Army provided us
with the September 2004 ending trial balance from BEIS. We compared the ending trial
balance from BEIS with the FY 2004 ending trial balance from DDRS-Audited Financial
Statements, which was used to prepare the FY 2004 Army General Fund Financial
Statements. In August 2005, after DFAS Accounting Services Army personnel had
worked to reconcile differences in the balances, we obtained the September 2004 ending
trial balance from BEIS and compared it with the FY 2004 ending trial balance from
DDRS-Audited Financial Statements. We analyzed the trial balances to determine the
causes for the differences. In addition, we reviewed DoD and DFAS procedures related to
the recording of beginning account balances.

        We conducted interviews with DFAS personnel in DFAS Accounting Services
Army and the BEIS Project Management Office. On August 19, 2005, we requested that
DFAS Accounting Services Army provide explanations for the significant differences
between the trial balances. The explanations provided by DFAS Accounting Services
Army personnel were based on their reconciliations of budgetary accounts with status data
and not on reconciliations of the general ledger accounts.

        We performed this audit from May through December 2005 in accordance with
generally accepted government auditing standards.

         Use of Computer-Processed Data. We used computer-processed data from
DDRS-Audited Financial Statements and BEIS to identify discrepancies in the trial
balances. The data contained in the DDRS-Audited Financial Statements came from
HQARS, which does not comply with Federal financial management system requirements.
We did not attempt to confirm the accuracy of the FY 2004 ending trial balances in
DDRS-Audited Financial Statements. The reliability of the computer-processed data did
not affect our audit conclusions because we were determining whether the FY 2005
beginning account balances in BEIS agreed with the FY 2004 ending account balances in
DDRS-Audited Financial Statements.

         Management Control Program. DoD Directive 5010.38, “Management Control
(MC) Program,” August 26, 1996, and DoD Instruction 5010.40 require DoD
organizations to implement a comprehensive system of management (internal) controls
that provides reasonable assurance that programs are operating as intended and to evaluate
the adequacy of the controls. We evaluated the controls over the recording of the
FY 2005 beginning account balances in BEIS. In addition, we reviewed the adequacy of
management’s self-evaluation of those controls and reporting of prior material internal
control weaknesses related to the implementation of BEIS. Specifically, we reviewed how
DFAS Accounting Services Army reviewed and reported known issues with large
unsupported accounting adjustments, known as the ending balance adjustments, and
abnormal balances contained in the general ledger data of the Army General Fund.

        Government Accountability Office High-Risk Area. The Government
Accountability Office (GAO) has identified several high-risk areas in DoD. This report
provides coverage of the Financial Management high-risk area.


                                            13
Prior Coverage
      During the last 5 years, the GAO and the DoD IG have issued three reports
      discussing BEIS. Unrestricted Government Accountability Office reports can be
      accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports
      can be accessed at http://www.dodig.mil/audit/reports.

GAO
      GAO-03-465, “DoD Business System Modernization, Continued Investment in
      Key Accounting Systems Needs to be Justified,” March 28, 2003

DoD IG
      DoD IG Report No. D-2006-033, “Defense Finance and Accounting Service
      Corporate Database User Access Controls,” December 7, 2005

      DoD IG Report No. D-2002-014, “Development of Defense Finance and
      Accounting Service Corporate Database and Other Financial Management
      Systems,” November 7, 2001




                                        14
Appendix B. Comparison of Trial Balances
        The following table shows differences between the FY 2004 post-closing ending
        account balances from DDRS and the FY 2005 beginning account balances in
        BEIS.

                                                    Account Balances
                                                     (in thousands)
                                                                               Absolute
                                                                              Difference
         General Ledger Account                DDRS              BEIS
                                                                            (in thousands)*
1010 - Fund Balance with Treasury           $ 89,548,609     $ 92,291,072   $     2,742,463

1110 - Undeposited Collections                         226              0               226

1190 - Other Cash                              1,168,466                0         1,168,466

1200 - Foreign Currency                          356,398                0           356,398

1310 - Accounts Receivable                     2,344,502        1,893,407          451,096*

1319 – Allowance for Loss on Accounts           (136,540)               0           136,540
Receivable

1340 - Interest Receivable                          49,848              0            49,848

1410 - Advances to Others                      1,284,970          567,743           717,227

1450 - Prepayments                             2,789,090                0         2,789,090

1511 - Operating Materials and Supplies       32,443,015                0       32,443,015
Held for Use

1512 - Operating Materials and Supplies        5,000,000                0         5,000,000
Held in Reserve for Future

1513 - Operating Materials and Supplies -        980,073                0           980,073
Excess, Obsolete, and Unserviceable

1519 - Operating Materials and Supplies -       (980,073)               0           980,073
Allowance

1521 - Inventory Purchased for Resale               20,470              0            20,470

1524 - Inventory - Excess, Obsolete, and            13,006              0            13,006
Unserviceable

1526 - Inventory - Work in Process               191,939                0           191,939




                                               15
                                                       Account Balances
                                                        (in thousands)
                                                                                   Absolute
                                                                                  Difference
         General Ledger Account                   DDRS              BEIS
                                                                                (in thousands)*
1529 - Inventory - Allowance                         (20,708)              0             20,708

1610 - Investments in U.S. Treasury                     1,490              0              1,490
Securities Issued by the Bureau of the Public
Debt

1611 - Discount on U.S. Treasury Securities                (3)             0                  3
Issued by the Bureau of the Public Debt

1612 - Premium on U.S. Treasury Securities                  6              0                  6
Issued by the Bureau of the Public Debt

1613 - Amortization of Discount and                        (1)             0                  1
Premium on U.S. Treasury Securities Issued
by the Bureau of the Public Debt

1620 - Investments in Securities Other Than                 1              0                  1
the Bureau of the Public Debt Securities

1711 - Land and Land Rights                         464,254                0            464,254

1720 - Construction in Progress                    5,495,062         (14,364)         5,509,426

1730 - Buildings, Improvements, and               31,071,085               0        31,071,085
Renovations

1739 - Accumulated Depreciation on               (17,097,154)              0        17,097,154
Buildings, Improvements, and Renovations

1740 - Other Structures and Facilities            11,173,038               0        11,173,038

1749 - Accumulated Depreciation on Other          (9,550,332)              0          9,550,332
Structures and Facilities

1750 - Equipment                                385,892,225                0       385,892,225

1759 - Accumulated Depreciation on              (294,685,619)              0       294,685,619
Equipment

1810 - Assets Under Capital Lease                    166,071               0            166,071

1819 - Accumulated Depreciation on Assets           (130,074)              0            130,074
Under Capital Lease




                                                  16
                                                 Account Balances
                                                  (in thousands)
                                                                              Absolute
                                                                             Difference
         General Ledger Account             DDRS              BEIS
                                                                           (in thousands)*
1820 - Leasehold Improvements                    11,455               0             11,455

1829 - Accumulated Amortization on               (9,311)              0              9,311
Leasehold Improvements

1830 - Internal-Use Software                  391,865                 0            391,865

1839 - Accumulated Amortization on             (99,801)               0             99,801
Internal-Use Software

1840 - Other Natural Resources                   18,808               0             18,808

2110 - Accounts Payable                    (12,373,426)     (11,223,067)         1,150,359

2120 - Disbursements in Transit                (12,239)               0             12,239

2130 - Contract Holdbacks                    (343,010)                0            343,010

2140 - Accrued Interest Payable                    (169)         (3,547)             3,378

2170 - Subsidy Payable to the Financing        (10,869)               0             10,869
Account

2180 - Loan Guarantee Liability                (12,293)               0             12,293

2190 - Other Accrued Liabilities                 (2,863)              0              2,863

2210 - Accrued Funded Payroll and Leave     (2,083,447)      (2,644,368)           560,921

2211 - Withholdings Payable                           0      (1,267,211)         1,267,211

2213 - Employer Contributions to Payroll     (363,490)                0            363,490
Taxes Payable

2220 - Unfunded Leave                      (2,656,508)       (2,567,346)            89,162

2225 - Unfunded FECA Liability               (281,613)                0            281,613

2290 - Other Unfunded Employment Related     (133,628)                0            133,628
Liability

2310 - Advances from Others                 (2,537,119)      (1,012,023)         1,525,096




                                            17
                                                   Account Balances
                                                    (in thousands)
                                                                                 Absolute
                                                                                Difference
         General Ledger Account               DDRS              BEIS
                                                                              (in thousands)*
2400 - Liabilities for Deposit Funds,           (137,806)      (2,552,730)          2,414,924
Clearing Accounts and Undeposited
Collections

2650 - Actuarial FECA Liability               (1,632,843)                0          1,632,843

2920 - Contingent Liabilities                 (1,011,845)                0          1,011,845

2940 - Capital Lease Liability                   (59,397)                0             59,397

2960 - Accounts Payable From Canceled            (73,766)                0             73,766
Appropriations

2980 - Custodial Liability                      (209,123)                0            209,123

2990 - Other Liabilities                      (1,418,423)                0          1,418,423

2995 - Estimated Cleanup Cost Liability      (40,366,172)                0        40,366,172

3100 - Unexpended Appropriations -           (73,238,304)     (61,695,619)        11,542,685
Cumulative

3310 - Cumulative Results of Operations     (109,208,001)     (11,771,948)        97,436,053

4201 - Total Actual Resources - Collected     82,966,611      89,321,509            6,354,898

4221 - Unfilled Customer Orders without       12,713,170      12,713,170                    0
Advance

4222 - Unfilled Customer Orders with           1,012,028        1,012,023                   5
Advance

4251 - Reimbursements and Other Income         1,893,447        1,893,407                  40
Earned - Receivable

4450 - Unapportioned Authority                       (265)            3,190             3,454*

4510 - Apportionments                        (14,864,595)     (16,301,861)         1,437,267*

4610 - Allotments - Realized Resources        (5,233,035)      (6,438,863)         1,205,827*

4620 - Unobligated Funds Exempt from             (13,411)      (1,236,503)          1,223,092
Apportionment




                                              18
                                                 Account Balances
                                                  (in thousands)
                                                                              Absolute
                                                                             Difference
         General Ledger Account             DDRS              BEIS
                                                                           (in thousands)*
4650 - Allotments - Expired Authority       (1,408,440)     16,062,000         17,470,440

4700 - Commitments - Programs Subject to    (1,362,436)     (20,858,900)        19,496,464
Apportionment

4801 - Undelivered Orders - Obligations,   (56,509,574)     (60,456,529)         3,946,955
Unpaid

4802 - Undelivered Orders - Obligations,    (4,074,059)       (567,743)          3,506,316
Prepaid/Advanced

4901 - Delivered Orders - Obligations,     (15,119,442)     (15,144,900)            25,458
Unpaid

Total                                                                      $1,020,924,236

* Difference due to rounding.




                                            19
Appendix C. Calculation of Unadjusted FY 2004
            Year-End Balances
       The following table shows how we calculated the FY 2004 unadjusted year-end
       balances for the six general ledger accounts in Table 1. To arrive at the
       unadjusted balances, we subtracted the accounting adjustments made at year-end
       from the FY 2004 ending trial balances.


                                                    Less FY 2004         Unadjusted
                                  DDRS FY 2004        Year-End        FY 2004 Year-End
                                  Ending Balances   Adjustments            Balances
   General Ledger Account          (in thousands)   (in thousands)      (in thousands)
1010-Fund Balance with Treasury    $ 89,548,609       $ 1,389,482       $ 88,159,127
1310-Accounts Receivable              2,344,502          123,719            2,220,784
2110-Accounts Payable               (12,373,426)       (4,629,571)         (7,743,855)
4510-Apportionments                 (14,864,595)                0         (14,864,595)
4700-Commitments-Programs
Subject to Apportionments            (1,362,436)                0          (1,362,436)
4801-Undelivered Orders-
Obligations Unpaid                  (57,363,040)          47,190          (57,410,230)
       .




                                             20
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Deputy Under Secretary of Defense for Business Transformation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services




                                          21
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        22
Defense Finance and Accounting Service
Comments




                      23
     Final Report
      Reference




     Recommend
     -ation 3.




24
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Jack L. Armstrong
Carmelo G. Ventimiglia
Mark A. Ives
Dale E. Coy
John T. Ferguson
Adriel E. Braaksma
E. Ellen Kleiman
Donna J. Paterson
